<html>
<title> - REVITALIZING AMERICAN LEADERSHIP IN ADVANCED MANUFACTURING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    REVITALIZING AMERICAN LEADERSHIP
                       IN ADVANCED MANUFACTURING

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2019

                               __________

                            Serial No. 116-8

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-708PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfbfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>                

              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                NEAL DUNN, Florida
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  VACANCY
CHARLIE CRIST, Florida               VACANCY
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             NEAL DUNN, Florida
PAUL TONKO, New York                 TROY BALDERSON, Ohio
BEN McADAMS, Utah                    ANTHONY GONZALEZ, Ohio
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              NEAL DUNN, Florida
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                         
                         
                         C  O  N  T  E  N  T  S

                             March 26, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     6
    Written Statement............................................     8

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    14

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    18

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    20

                               Witnesses:

Mr. Ryan Myers, Director of Business Development - DoD, Hexagon 
  Manufacturing Intelligence
    Oral Statement...............................................    22
    Written Statement............................................    24

Mr. Mike Molnar, Director of the Office of Advanced 
  Manufacturing, National Institute of Standards and Technology
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. John Hopkins, CEO of the Institute for Advanced Composites 
  Manufacturing Innovation
    Oral Statement...............................................    41
    Written Statement............................................    43

Ms. Valri Lightner, Acting Director of the Advanced Manufacturing 
  Office under the Office of Energy Efficiency and Renewable 
  Energy, U.S. Department of Energy
    Oral Statement...............................................    59
    Written Statement............................................    61

Dr. Mitchell Dibbs, Associate R&D Director for External 
  Technology - Government Programs, Dow Chemical Company
    Oral Statement...............................................    70
    Written Statement............................................    72

Discussion.......................................................    81

             Appendix I: Answers to Post-Hearing Questions

Mr. Ryan Myers, Director of Business Development - DoD, Hexagon 
  Manufacturing Intelligence.....................................   100

Mr. Mike Molnar, Director of the Office of Advanced 
  Manufacturing, National Institute of Standards and Technology..   104

Dr. John Hopkins, CEO of the Institute for Advanced Composites 
  Manufacturing Innovation.......................................   110

Ms. Valri Lightner, Acting Director of the Advanced Manufacturing 
  Office under the Office of Energy Efficiency and Renewable 
  Energy, U.S. Department of Energy..............................   117

Dr. Mitchell Dibbs, Associate R&D Director for External 
  Technology - Government Programs, Dow Chemical Company.........   128

            Appendix II: Additional Material for the Record

Statement submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   134

 
                    REVITALIZING AMERICAN LEADERSHIP
                       IN ADVANCED MANUFACTURING

                              ----------                              


                        TUESDAY, MARCH 26, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
             joint with the Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 10:01 a.m., 
in room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee on Research and 
Technology] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good morning, and welcome to this joint hearing with the 
Research and Technology Subcommittee and the Energy 
Subcommittee. A warm welcome as well to our distinguished group 
of witnesses. Today is dedicated to every student, researcher, 
engineer, line worker, product manager, and American family 
wondering about the future of the United States' industrial 
place and our limitless potential for innovation and the 
strength of our workforce. This hearing is inspired by the 
motivation and desire for American excellence where software 
engineers meet assembly workers to deliver unprecedented 
quality, where and how we innovate the future.
    It is particularly significant to welcome former 
colleagues, a constituent from Michigan's 11th District, Mr. 
Ryan Myers from Hexagon Manufacturing Intelligence located in 
Wixom and in Troy.
    Manufacturing USA is a network of institutes that bring 
together multiple Federal agencies, large and small 
manufacturers, universities, community colleges, and nonprofits 
to catalyze new technologies, meet research needs, and train 
the workforce of the future. This initiative bore out of a 
policy prescription to answer the question we as a Nation faced 
in the post-recession era: How do we foster a competitive 
innovation agenda and ensure that the research and technology 
happens in our communities, in partnership with inclusive and 
necessary stakeholders?
    It is a sincere and tremendous honor to recognize the 
achievement of our revitalized approach to advanced 
manufacturing innovation and what so many have dedicated the 
last decade toward achieving. Beginning with a pilot institute 
in Youngstown, led by the National Center for Defense 
Manufacturing and Machining, America Makes has invested in the 
development of 3D printing technologies and supply chain 
adoption. In addition, they have developed a workforce training 
roadmap for the Nation, including a veteran training program.
    The Manufacturing USA Institutes are a critical part of 
U.S. global leadership in advanced manufacturing. The 
institutes provide a unique, collaborative platform for U.S. 
industry and academia to exchange best-in-class expertise to 
solve challenges and push the bounds of innovation. They also 
create a valuable opportunity for industry partners of all 
sizes to network, share data, exchange technology, and generate 
new business.
    Small and medium-size companies make up 98 percent of all 
manufacturing firms in the United States, and the institutes 
provide unique access to research and innovation critical to 
keeping their businesses competitive, work that they could not 
do alone.
    As we'll hear today, the private sector has been 
overwhelmingly supportive of the Manufacturing USA Institutes. 
Commitments of support over the program's life have grown to 
more than $3 billion, $1 billion of Federal funds matched by 
over $2 billion of non-Federal investment. The role of the 
Federal Government to catalyze new approaches to research and 
development (R&D) remains imperative and defines the value of 
the Manufacturing USA Institutes. It requires Federal 
leadership to bring all stakeholders to the table to tackle 
large problems, develop new innovation, and address large as 
well as acute workforce training needs. This has proven 
successful, and it has been encouraged by dozens of 
manufacturing executives, university presidents, and experts 
such as the Advanced Manufacturing Partnership Steering 
Committee and the President's Council of Advisors on Science 
and Technology.
    Heated global competition and the race to win the future is 
most certainly upon us. We acknowledge governments in free-
market economies around the world have stepped up their 
investments in converting basic research into new manufacturing 
goods and processes. Today, Japan spends about 7 percent of its 
government R&D budget on this translational research. Germany 
spends about 12 percent. South Korea spends about 30 percent. 
The U.S., in contrast, spends just 0.5 percent.
    We also today recognize the need to develop and elevate the 
priority of a skilled advanced manufacturing workforce by 
empowering Manufacturing USA to work with its partners. The 
demand for manufacturing jobs is met with a gulf of a readily 
available workforce. Currently, the skills gap for advanced 
technology jobs is projected to leave nearly 2.4 million 
positions unfilled between today and 2028, with a potential 
economic impact of $2.5 trillion.
    In this hearing, we will learn how the Manufacturing USA 
Institutes have been successful, and consider opportunities to 
improve the work that they do either through the transfer of 
new technologies throughout the supply chain, or in workforce 
development, or by way of other regional economic development 
goals that have been articulated by the communities where the 
institutes exist.
    I welcome your expert and exciting testimony, and I look 
forward to working together with my great and passionate 
colleagues on both sides of the aisle to make sure that the 
state of advanced manufacturing in the United States of America 
remains strong and is supported by the full faculties of the 
Federal Government.
    And with that, I yield back.
    [The prepared statement of Chairwoman Stevens follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. The Chair now recognizes Mr. Baird for 
an opening statement.
    Mr. Baird. Well, good morning, and thank you, Chairwoman 
Stevens and Chairman Lamb, for holding this hearing today on 
this important topic which impacts almost everyone in all of 
our districts.
    U.S. manufacturing plays a central role in the Nation's 
economic security and in our competitiveness. Manufacturing 
accounts for nearly 12 percent of the Nation's gross domestic 
product (GDP) and directly employs over 12 million U.S. 
workers. In my home State of Indiana, manufacturing accounts 
for almost 29 percent of the State's GDP and 17 percent of its 
workforce is employed in manufacturing, the highest percentage 
in the Nation.
    While U.S. manufacturing has seen some ups and downs over 
the last century, it is clear there are significant 
opportunities for growth through the development and 
utilization of advanced technologies in manufacturing, as well 
as advanced technologies such as additive manufacturing, 
advanced materials, and cloud computing that are starting to be 
used by manufacturers to speed up and improve development, 
drive efficiencies in production, and enable new business 
models.
    Federal agencies play a key role in fostering the growth of 
advancing manufacturing through investments in research and 
development, education and workforce development, and in 
supporting commercialization through technology transfer 
activities. We must also maximize these investments to ensure 
the greatest return for the hardworking taxpayers' dollars.
    The National Institute for Standards and Technology (NIST) 
is working with the industry and universities to develop 
essential measurement capabilities and to forge collaborations 
that help U.S. manufacturers overcome shared technical 
obstacles. I look forward to hearing our witnesses through the 
measurement science conducted at NIST laboratories, the 
Hollings Manufacturing Extension Partnership, and the 
Manufacturing USA program. With the shared expertise and 
cooperation of our excellent universities, research agencies 
like NIST, and private industry, the U.S. can lead the world in 
advanced manufacturing.
    I want to thank our witnesses for being here today, and I 
look forward to your testimony. Thank you, Madam Chairwoman. I 
yield back.
    [The prepared statement of Mr. Baird follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. The Chair now recognizes the Chairman 
of the Subcommittee on Energy, Mr. Lamb, for an opening 
statement.
    Mr. Lamb. Thank you, Madam Chairwoman. Good morning to all, 
and thank you for being here. I am thrilled that we're holding 
this hearing. Manufacturing is crucial not only to the country 
but to those of us in Pennsylvania. I'm also fortunate enough 
to serve as the Chairman of the Steel Caucus, which I mention 
only because we're having our State of Steel Hearing tomorrow 
at 8 a.m., bright and early if anyone wants to join us.
    But I am happy that the Chairwoman noted the competitive 
situation in which we find ourselves because both in the steel 
industry and in manufacturing overall, we are coming under 
increased pressure from other countries around the world every 
year, and we have to respond.
    More than half a million Pennsylvanians, people in my 
State, work in manufacturing. This has an $87 billion impact 
for us alone. But to me the more striking number is that we 
lost 5 million manufacturing jobs between 2000 and 2014, so, in 
other words, there are 10 Americans--for every one in my State 
that are currently working in manufacturing, there are 10 
Americans who no longer have a job in manufacturing. This is an 
urgent problem. It's not just something we need to work on 
because it sounds good or because it's exciting or interesting 
or scientific. People's livelihoods are at stake, and I think 
we need to approach it that way.
    I think that the work that the Manufacturing USA Institutes 
do just plays a key role in all of this and is really heroic. I 
think it's going to help us maintain a strong manufacturing 
base, and I think it's going to help us make gains in 
biotechnology and chemical and materials processing, even in 
robotics.
    In my district, we've seen a great collaboration between 
Robert Morris University and the America Makes Institute. In 
fact, they just opened a 3D printing and additive manufacturing 
laboratory last month, which will allow them to do research and 
testing in some of these areas. And to me it reinforces that we 
really are at the start of something new here in manufacturing. 
Advanced manufacturing seems to be in its infancy, which means 
that someone around the world will develop the technology to 
win this game or at least to make some really big gains, and I 
would like that to be us here in the United States.
    The research and work done by the five institutes sponsored 
by the Department of Energy (DOE) will help us on the energy 
efficiency side of the equation and making sure that we can 
reduce the environmental impacts and lower the electricity 
bills that come with manufacturing. Again, it's a place where 
the U.S. should lead the way. And this work I know extends 
across many programs in DOE. In fact, just last week ARPA-E 
(Advanced Research Projects Agency - Energy), which is a 
program we're very proud of and supportive of here, announced 
$36 million in awards to develop high temperature and high 
pressure heat exchangers, which is absolutely essential to 
increasing energy efficiency in this area.
    So the institutes that we're highlighting today are 
impressive. They are working to leverage private investment, 
which is something we all know we need to work on. And we do 
believe that we can create about 3.5 million more manufacturing 
jobs in the next decade. As the Chairwoman rightly noted, some 
of these are at risk of going unfilled because we haven't done 
the same work on the other side of the ledger to prepare our 
workforce, but to me that's not an outcome that we have to 
accept, and it's something that we can work together on to do 
in the years ahead. Investments like this are essential to 
developing the technologies that will help us lead the world 
and lead this industry for long into the future, and that's 
what I look forward to learning about here today.
    So thank you all for being here, and I yield back.
    [The prepared statement of Mr. Lamb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. The Chair now recognizes the Ranking 
Member of the Subcommittee on Energy, Mr. Weber, for an opening 
statement.
    Mr. Weber. Thank you, Madam Chair.
    Today, we will hear from a panel of experts on advanced 
manufacturing technology development and discuss the Department 
of Energy's (DOE's) and the National Institute of Standards and 
Technology's (NIST's) roles in enabling fundamental research 
and development in support of this rapidly evolving field.
    Advanced manufacturing covers a wide range of applications 
from additive manufacturing and creating advanced controls and 
sensors, to developing those waste heat recovery systems that 
Representative Lamb referred to, and wide bandgap 
semiconductors for power electronics.
    Innovation in advanced manufacturing is critical to 
America's continued international competitiveness and I will 
add national security as well. Today's hearing is yet another 
opportunity to evaluate whether we are effectively targeting 
Federal efforts to ensure that the United States remains a 
leader in science and technology.
    DOE primarily funds advanced manufacturing research through 
its Office of Energy Efficiency and Renewable Energy Advanced 
Manufacturing Office (AMO) as well. AMO funds R&D projects at 
the DOE national labs and enables early-stage, technical 
partnerships with American universities and industry 
stakeholders in order to improve the energy efficiency and 
effectiveness of those manufacturing processes. For example, 
the DOE-managed Institute for Advanced Composites Manufacturing 
Innovation (IACMI)--lots of acronyms--works with national labs 
and university partners to accelerate R&D in manufacturing 
advanced polymer composites for use in vehicles and wind 
turbines. And let me hasten to add, Conor, that Texas leads the 
Nation in wind energy. I'm just saying, just for the record.
    Similarly, at the Oak Ridge National Lab Manufacturing 
Demonstration Facility, researchers host partners from industry 
to apply advanced manufacturing technologies in order to lower 
their production costs, create new products, and reduce 
lifecycle energy needs. Today, we will hear from one of these 
industry partners, Dow Chemical Company. And I will say that 
Dow Chemical Company happens to have a fairly sizable footprint 
in District 14 in Texas.
    Dow Chemical is a diversified chemical company that 
leverages advanced manufacturing R&D to drive innovation over a 
broad range of chemical products and services, some of which 
are produced by the over 6,000 Dow Chemical employees and 
contractors in my 14th District of Texas. That's a sizable 
footprint. We're very proud of Dow. Dow Chemical relies on the 
deep bench of basic research capabilities that only the Federal 
Government can provide. Since 2015, Dow Chemical has entered 
into 26 different collaborations with DOE and 10 collaborations 
with NIST on complex research challenges. Partnerships like 
this between the Federal Government, the national labs, 
academia, and industry on advanced manufacturing can modernize 
and transform many U.S. sectors.
    But in our search for breakthroughs, we must focus on the 
taxpayer's investments on the things the Federal Government is 
good at doing, which we all know is not everything. With that 
in mind, DOE should continue to prioritize investments in user 
facilities and the basic and early-stage research that provides 
the critical data and analytical tools industry needs to 
commercialize groundbreaking technologies.
    I want to thank the Chairwoman for holding this hearing and 
the witnesses for their testimony, and I'm looking forward to 
learning more about the right priorities for Federal 
investments in advanced manufacturing today.
    And, Madam Chair, I yield back.
    [The prepared statement of Mr. Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. Well, as you can tell, we 
are delighted to have you all here today, and at this time, I'd 
like to introduce our witnesses. Our first witness--oh, excuse 
me, important. If there any Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time I'd also like to introduce our witnesses. 
We're eager to hear from you. Our first witness is Mr. Ryan 
Myers. Mr. Myers is the Director of Business Development - 
Department of Defense at Hexagon Manufacturing Intelligence. In 
this role, he also manages a number of strategic relationships 
for Hexagon in the advanced manufacturing sphere. He has a 
bachelor's degree in mechanical engineering from Michigan 
Technological University, a master's in engineering management 
from Long Beach State, and both an MBA and master's in finance 
as part of that.
    Our next witness is a friend of mine, Mr. Mike Molnar. I 
say he's a friend because he's a former collaborator through 
the Manufacturing USA network where I worked. Mr. Molnar is the 
founding Director of the Office of Advanced Manufacturing at 
the National Institute of Standards and Technology, NIST. And 
in this capacity he is responsible for NIST's extramural 
advanced manufacturing programs, and he serves as a liaison to 
academia and industry. Mr. Molnar has earned a bachelor's 
degree in mechanical engineering and a master's degree in 
manufacturing systems from the University of Wisconsin, as well 
as an executive MBA from the University of Notre Dame.
    After Mr. Molnar is Dr. John Hopkins. Dr. Hopkins is the 
Chief Executive Officer of the Institute for Advanced 
Composites Innovation, IACMI. As CEO, Dr. Hopkins leads this 
advanced Manufacturing USA Institute funded by the Department 
of Energy to develop advanced composites with novel material 
properties that are incredibly strong and very lightweight. Dr. 
Hopkins holds a bachelor's and a master's degree in mechanical 
engineering from the University of Tennessee, a Ph.D. in 
mechanical engineering from the University of Tennessee, and an 
MBA from Vanderbilt University.
    Our fourth witness is Ms. Valri Lightner. Ms. Lightner is 
Acting Director of the Advanced Manufacturing Office, Office of 
Energy Efficiency and Renewable Energy at the Department of 
Energy. Ms. Lightner's team manages research, development, and 
the adoption of energy-related advanced manufacturing 
technologies and practices. She holds a bachelor's degree in 
chemical engineering from Villanova University.
    And our final witness is Dr. Mitchell Dibbs. Dr. Dibbs is 
an Associate R&D Director for External Technology Government 
Programs at the Dow Chemical Company, which also has a great 
presence in Michigan, and so we are delighted to have you here 
today. We all recognize what a profound role that Dow has 
played in the creation of Manufacturing USA. In your role at 
Dow you're leading global efforts for government-related R&D. 
Dr. Dibbs has received a bachelor's in chemistry and math from 
the University of Wisconsin - Superior and a Ph.D. in 
analytical polymer chemistry from the University of Wisconsin - 
Madison.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for hearing. When you have all completed 
your spoken testimony, we will begin the questions. And each 
Member will have 5 minutes to question the panel.
    And so today we will start with Mr. Myers.

                    TESTIMONY OF RYAN MYERS,

             DIRECTOR OF BUSINESS DEVELOPMENT - DOD,

               HEXAGON MANUFACTURING INTELLIGENCE

    Mr. Myers. Thank you, Chairwoman Stevens and Chairman Lamb, 
Ranking Member Baird, Ranking Member Weber, and other Committee 
Members. It's an honor to be here today to speak before the 
House of Representatives Committee on Space--on Science, Space, 
and Technology, Subcommittees on Research and Technology and 
Energy on topics so critical to national defense, advanced 
manufacturing.
    I am Ryan Myers, Director of Business Development for 
Hexagon Manufacturing Intelligence, North America. We do have 
an office in Wixom, which is in Chairman Stevens' district--
Chairwoman Stevens, sorry. We also have headquarters in Rhode 
Island, the 2nd District there under Chairman Langevin. We have 
a total of 13 offices spread throughout the country and 
centered around manufacturing hubs, which are critical to the 
growth of our business and supporting the network of 
manufacturers local to those areas. Larger Hexagon is a company 
headquartered out of Stockholm, Sweden, with about $4.5 billion 
in revenue and 20,000 employees globally with many different 
divisions from imaging from space, terrain mapping, and down to 
the industrial side, which I work on the industrial metrology 
side.
    Hexagon is a global leader in digital solutions, creates 
autonomous-connected systems where data is seamlessly connected 
through converging the physical and digital worlds, building on 
intelligence into all process. We digitally transform the 
manufacturing process by converging design and engineering, 
production, and metrology solutions to make factories smarter. 
We use our design and engineering solutions to ensure computer-
aided techniques to simulate reality and ensure quality is 
embedded into the design right up front. Production solutions 
and CNC simulations that computer-aided manufacturing software 
ensure the design intent is maintained through the production 
process. Our metrology centers then capture real-world data for 
inspection, and our metrology software provides actionable 
information through advanced analytics and intuitive reporting.
    We have memberships in three of the institutes, LIFT 
(Lightweight Innovations for Tomorrow), America Makes, and MxD 
(Manufacturing times Digital). I was going to say DMDII, but 
they changed their name recently. We have provided equipment to 
LIFT and to America Makes in terms of inspection equipment. We 
have provided software to MxD through one of our companies that 
we acquired 2 years ago, MSC Software Solutions, to model how 
3D printing was made and how to optimize the design for 3D 
parts--3D printed parts.
    We have seen benefits by being part of the manufacturing 
institutes, and I've been a strong supporter of it because I've 
chartered with DOD business development and, given that eight 
of the institutes are DOD-funded, it seemed like a good fit. 
And we have had some purchases come through that. The 
networking is also very beneficial for a midsize company like 
ours. Several of the larger customers are our customers as 
well, and it's good to work with them on additional projects 
that are coming through the institutes to advance 
manufacturing.
    There are some suggestions for improvement. One in 
particular that comes to mind, I'd like to see how we can 
leverage the network of the institutes, as well as OSD ManTech 
(Office of the Secretary of Defense Manufacturing Technology) 
and the MEPs (Manufacturing Extension Partnerships) through 
some integrated process to advance. I think the infrastructure 
is there to really move forward to make the United States a 
leader in advanced manufacturing, but I think there's some 
communication and some integration that has to happen between 
the two, and I don't know--I wrote in my testimony that I think 
the institutes can come up with a brand--you know, the broad 
new manufacturing technologies, and the ManTech programs can 
productize those and through the MEPs they can focus on 
education and training and scale of those new technologies to 
the small and midsize manufacturers, which is the largest base 
of manufacturers in this country.
    Along with that, there's some workforce, but I see I've run 
out of time. I'll probably say that a little bit later. Thank 
you, Chairwoman Stevens.
    [The prepared statement of Mr. Myers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. Now, we will hear from Mr. 
Molnar.

                    TESTIMONY OF MIKE MOLNAR,

        DIRECTOR OF THE OFFICE OF ADVANCED MANUFACTURING,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Mr. Molnar. Thank you, Chairwoman Stevens, Chairman Lamb, 
Ranking Member Baird, Ranking Member Weber, and Members of the 
Subcommittees. I'm Mike Molnar, Director of the Office of 
Advanced Manufacturing at the National Institute of Standards 
and Technology in the Department of Commerce. Thank you for the 
opportunity to testify about Manufacturing USA.
    I'd like to begin with some background on U.S. 
manufacturing, which frames the need for Manufacturing USA. A 
strong U.S. manufacturing sector is essential to our economic 
security and our national security. American manufacturers 
contribute over $2 trillion to the U.S. economy and drives more 
than 60 percent of our exports. Moreover, manufacturing plays a 
critical role in our innovation ecosystem, representing over 70 
percent of private-sector R&D.
    Especially for the emerging technologies in advanced 
manufacturing, industry faces a critical workforce skills gap. 
Another worrisome trend is that the U.S. has been a net 
importer of advanced technology products since 2002. Innovation 
is an American strength, but inventing here, while other 
nations benefit from new jobs and products, is not sustainable. 
Competitor nations have increased their efforts in applied 
research, often leveraging discoveries made by U.S. 
researchers. U.S. investments in manufacturing innovation can 
help restore our competitive edge in manufacturing, ensuring 
that what's invented here is made here. Addressing this 
disparity is the purpose of Manufacturing USA.
    Manufacturing USA uses a public-private partnership 
approach to create an effective innovation space for U.S. 
manufacturers. It is how industry can collaborate with each 
other--and with academia--to solve challenging industry-
relevant problems. Manufacturing USA Institutes have two main, 
complementary activities: Applied research and workforce 
skills. On research: the key is focused on bridging the 
``valley of death,'' applied research to de-risk and scale up 
technologies. Simply put, moving ideas into production here in 
the United States. Institutes provide the neutral convening 
ground for collaborations.
    The activities are ``pre-competitive''; product 
commercialization happens in industry, so even direct 
competitors can collaborate on issues that no single company 
can solve by themselves. On workforce: The key is collaboration 
with educational partners, including universities and community 
colleges, to develop workforce training for these emerging 
technologies. With passage of the bipartisan Revitalize 
American Manufacturing and Innovation Act, or RAMI, Congress 
established the Manufacturing USA network.
    The Manufacturing USA Institutes are sponsored by the 
Department of Defense, Department of Energy, and the Department 
of Commerce. The program is coordinated by the National Program 
Office, working with eight other agencies. It's important to 
note that the RAMI requirements are only applicable to 
institutes established by Commerce. Institutes sponsored by DOD 
and DOE were established under other authorities, and NIST has 
no role in the management of these institutes.
    NIST does have the responsibility to convene the network of 
institutes, facilitate information and knowledge sharing, 
communicate with the public, and report on the network's 
performance to Congress each year. NIST laboratory programs 
have technical collaborations and provide subject-matter 
experts with all 14 Manufacturing USA Institutes. RAMI also 
directed NIST to work with the Manufacturing Extension 
Partnership to ensure the program reaches small and medium-
sized companies--the critical U.S. supply chain.
    Collectively in the past year, Manufacturing USA Institutes 
engaged nearly 1,300 member organizations with two-thirds of 
these being manufacturers and two-thirds of those being small 
manufacturers. These members work on hundreds of major research 
and development projects, projects of priority to broad 
industry sectors. Institutes and their members have also 
trained close to 200,000 people in the past year with advanced 
manufacturing skills. Institutes partner with educational 
organizations of industry to train students, existing workers, 
and military veterans in advanced manufacturing.
    In looking ahead, global competition is fierce and has 
accelerated since the passage of RAMI. On National 
Manufacturing Day, the White House released the Strategy for 
American Leadership in Advanced Manufacturing. Manufacturing 
USA is working to support the goals of our national strategic 
plan and is the delivery vehicle for a number of national 
initiatives.
    In closing, I'd like to thank you again for the opportunity 
to testify about Manufacturing USA. This is a team effort 
involving agency partners from DOD and DOE in sponsoring the 
institutes, along with the Departments of Agriculture, 
Education, Labor, HHS (Health and Human Services), NASA 
(National Aeronautics and Space Administration), and NSF 
(National Science Foundation) in the broader interagency team. 
I look forward to your questions. Thank you.
    [The prepared statement of Mr. Molnar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. Dr. Hopkins.

                 TESTIMONY OF DR. JOHN HOPKINS,

             CEO, INSTITUTE FOR ADVANCED COMPOSITES

                    MANUFACTURING INNOVATION

    Dr. Hopkins. Good morning, and thank you, Madam Chair, 
Chairman, Members of the Subcommittees. I'm John Hopkins, the 
Chief Executive Officer of the Institute for Advanced 
Composites Manufacturing Innovation, known as IACMI, the 
Composites Institute. IACMI is a public-private partnership 
comprised of more than 160 members from industry, academia, 
government agencies, and trade organizations. It leads 
innovation and workforce development initiatives to grow the 
adoption of advanced composites, strengthen U.S. manufacturing 
base, and support U.S. national security with the current focus 
on energy interests. As a Manufacturing USA Institute, IACMI is 
supported by the U.S. Department of Energy's Advance 
Manufacturing Office, as well as key State and industry 
partners, including the States of Indiana, Ohio, Colorado, 
Michigan, and Tennessee.
    IACMI's technology impact is focused on the area of 
advanced composites, which combines strong fibers with tough 
polymers to provide strength and stiffness while being very 
lightweight, stronger than steel, lighter than aluminum, and 
corrosion-proof.
    We have four primary goals under DOE: Reducing the cost of 
these materials, improving the recyclability, and providing a 
pathway for their greater adoption for energy efficiency and 
energy savings. IACMI and our partners have already achieved or 
are ahead of schedule for its technical goals. However, an even 
greater outcome is that the DOE-established goals have created 
a framework for IACMI to form a community for innovation. This 
community is addressing the energy-based challenges essential 
to our DOE program but is also targeting other key application 
areas in markets that support national security interests in 
not only energy but also in space defense and infrastructure.
    IACMI provides a production-relevant environment for 
innovation through its founding partners, the University of 
Tennessee and Oak Ridge National Laboratory (ORNL), as well as 
through its other strategic university and national laboratory 
partners across the country. These local ecosystems leverage 
proximity for co-located place-based innovation while also 
connecting to the greater network innovation assets within 
IACMI. This builds on the successful model and Manufacturing 
Demonstration Facility at ORNL is used to support facility-
based collaborations in support of advanced manufacturing.
    Through that, we created a community of consortium members 
that span the composite supply chain and include specific 
emphasis on the engagement of small and medium enterprises. 
More than 50 percent of our 130 industry members are small and 
medium companies, and they are a critical part of the U.S. 
composites value chain.
    IACMI R&D projects validate new technologies that can be 
adopted by the entire supply chain. These projects officially 
de-risk technology for critical decisionmaking within supply 
chain partners sets as necessary for large-scale adoption.
    We have great examples of these SMEs (small and medium-
sized enterprises) driving economic growth via collaboration. 
Just as an example, Techmer PM and Local Motors, two SMEs, have 
collaborated with several of our innovation partners to expand 
material options and manufacturing consistency for advanced 
composites. As a result, Techmer has expanded its catalog of 
new products and expects to double its sales of these products 
in 2019.
    As innovation outcomes create and grow markets such as 
these, new workforce needs must also be met, and IACMI and its 
workforce partners have placed more than 100 interns in our 
internship program, trained more than 2,000 industry workers 
through composites training workshops and courses with our 
partners, and engaged more than 9,000 K through 12 students in 
science, technology, engineering, and math activities.
    IACMI has created a nationally connected ecosystem for 
innovation that engages small and large companies, serves 
national security needs, supports innovation and technology 
validation at scales relevant for commercial adoption, and 
helps drive economic growth. IACMI's accomplishments directly 
support the goals and strategies outlined in the October 2018 
report: Strategy for American Leadership in Advanced 
Manufacturing released by the White House. I see that Mike has 
brought a copy for our use.
    And since IACMI's founding, the composites industry has 
announced more than $400 million in capital investments and 
3,000 jobs in eight States. IACMI projects have led to more 
than 10 new products now commercially available. Through the 
institute's first 4 years, IACMI has worked with partners to 
make significant strides in not only reaching our DOE goals but 
also in establishing a foundation for manufacturing innovation 
and workforce development that can continue to serve into the 
future.
    As an institute that's positioned to serve across key 
markets for both regional and national interests and is 
completing mission-specific objectives for DOE, IACMI will seek 
to create ongoing public-private co-investment opportunities 
and new forms of Federal and State participation that extend 
the value of DOE's initial investment of taxpayer dollars to 
grow a stronger, globally competitive, U.S. advanced composites 
industry.
    Thank you for your time today, and I look forward to 
answering any questions.
    [The prepared statement of Dr. Hopkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Ms. Lightner?

                  TESTIMONY OF VALRI LIGHTNER,

                 ACTING DIRECTOR OF THE ADVANCED

             MANUFACTURING OFFICE, OFFICE OF ENERGY

                EFFICIENCY AND RENEWABLE ENERGY,

                    U.S. DEPARTMENT OF ENERGY

    Ms. Lightner. Chairwoman Stevens, Chairman Lamb, Ranking 
Members Weber and Baird, and Subcommittees on Energy and 
Research and Technology, good morning, and thank you for the 
opportunity to testify today. My name is Valri Lightner, and 
I'm the Acting Director of the Department of Energy's Advanced 
Manufacturing Office within the Office of Energy Efficiency and 
Renewable Energy.
    As you've heard, manufacturing is critical to the U.S. 
economy. The sector generates roughly 12 percent of the gross 
domestic product and employs more than 12 million Americans. It 
also consumes one-third of the country's energy and has an 
energy bill of $150 billion per year. Today, natural gas is 
used more than any other fuel source in the manufacturing 
sector, helping to make it the least carbon-intense end use 
sector according to the Energy Information Administration.
    The Department's Advanced Manufacturing Office funds and 
manages research and development activities to improve energy 
efficiency across the manufacturing sector and reduce the 
energy impact of manufactured goods. Greater energy efficiency 
saves industry money and improves their economic 
competitiveness, while also reducing emissions. The 
Department's investments in industrial energy efficiency have 
contributed to a reduction in energy intensity in the 
industrial sector by over 30 percent since 1970.
    Working with stakeholders, my office has identified 14 
technology areas with high-energy impact potential in the 
United States' industry, including materials for harsh 
environments and process heating. Our balanced portfolio 
includes early-stage research projects, consortia, and 
technical partnerships. The focus of today's hearing is our 
Clean Energy Manufacturing Innovation Institutes executed as 
consortia under the authority from the Energy Policy Act of 
2005.
    My office manages five institutes, which are formally 
recognized as part of the Manufacturing USA network. These 
institutes are large-scale public-private partnerships 
catalyzed by Federal investment of $70 million over 5 years. 
Through collaborative multidisciplinary teams from industry, 
academia, and national labs, the institutes create innovation 
ecosystems that accelerate technology development. In addition 
to research and development activities, institutes provide 
shared research facilities that are particularly valuable to 
small and medium-sized businesses that can't afford facilities 
of their own.
    Institutes also have a workforce development component to 
increase the country's preparedness for the manufacturing jobs 
of the future, including retraining the current workforce and 
training the next generation of workers.
    Our institutes cover a wide range of technology areas. Our 
first institute, PowerAmerica in Raleigh, North Carolina, 
focuses on reducing the cost of wide bandgap semiconductors for 
use in power electronics devices.
    The Institute for Advanced Composite Manufacturing 
Innovation located in Knoxville, Tennessee, works to drive down 
the cost and energy consumption of carbon fiber composite 
manufacturing for use in lightweight vehicle components, 
compressed gas storage tanks, and wind turbine blades.
    The Clean Energy Smart Manufacturing Innovation Institute 
located in Los Angeles, California, is focused on smart 
manufacturing. That is using sensors, controls, data, and 
modeling with an opportunity to improve energy efficiency by 15 
percent.
    The Rapid Advancement and Process Intensification 
Deployment Institute located in New York City is driving the 
next generation of chemical manufacturing technologies with 
potential for orders-of-magnitude reduction in energy.
    The Reducing Embodied Energy and Decreasing Admissions 
Institute headquartered in Rochester, New York, focuses on 
recycling and increasing the use of secondary materials with a 
focus on metals, electronics, polymers, and fibers.
    Overall, the Department's institutes have leveraged $350 
million in non-Federal support, partnered with 106 large 
manufacturers and 168 small and medium businesses and leveraged 
support from 11 States. Just this morning the Department issued 
a funding opportunity for a sixth institute on cybersecurity 
and energy efficient manufacturing.
    With that, I'd like to thank the Committee, and I 
appreciate the opportunity to discuss the Department's 
manufacturing institutes.
    [The prepared statement of Ms. Lightner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. Dr. Dibbs?

                TESTIMONY OF DR. MITCHELL DIBBS,

                     ASSOCIATE R&D DIRECTOR,

            EXTERNAL TECHNOLOGY-GOVERNMENT PROGRAMS,

                    THE DOW CHEMICAL COMPANY

    Dr. Dibbs. Chairwoman Stevens, Chairman Lamb, Ranking 
Members Baird and Weber, and the Members of the Subcommittees, 
it is my privilege to address you on the topic of revitalizing 
American leadership in advanced manufacturing. My name is 
Mitchell Dibbs, and I am the Associate R&D Director of External 
Technology for the Dow Chemical Company. My organization 
oversees all of Dow's research collaborations with government 
agencies, government laboratories, universities, and 
independent laboratories around the world.
    In 2018, Dow invested over $1.5 billion on research and 
development. The majority was expended on internal programs. 
However, Dow also supports a broad portfolio of external 
collaborations. Dow works with governmental institutions and 
agencies worldwide to advance the role of chemistry in solving 
the world's greatest challenges.
    Dow has strongly supported the subject of today's hearing. 
Dow co-chaired the Advanced Manufacturing Partnership (AMP) 
effort in 2012 and 2014. I was personally involved with the AMP 
2.0 team and helped develop the recommendations for structuring 
the manufacturing innovation institutes that are the foundation 
of Manufacturing USA. Dow strongly believes that a 
reinvigorated U.S. manufacturing sector has the potential to 
positively address many of the challenges facing this country, 
including maintaining technology leadership, promoting global 
competitiveness, and providing critical STEM (science, 
technology, engineering, and mathematics) workforce skills to 
sustain and grow an advanced technology economy.
    Dow has experience with the Manufacturing USA Institutes 
having joined 3 of the 14 directly and one indirectly, as well 
as exploring several others. Dow is a member of the Digital 
Manufacturing and Design Innovation Institute that was recently 
rebranded as MxD, and the Rapid Advancement and Process 
Intensification Deployment Institute, RAPID. We have taken 
leadership roles in these two institutes and are active in 
multiple projects.
    Dow is also an active member of the Institute for Advanced 
Composites Manufacturing Innovation, IACMI. Examples of 
projects, for instance, at IACMI, the next generation of high 
energy efficient automobiles must be lighter without 
sacrificing safety and reliability. The invention of unique 
chemistry and development of novel carbon fiber intermediates 
and ultrafast production methods led to the achievement of 
automotive OEM specifications.
    At MxD, application of the integrated real-time 
optimization technology brought together large and small 
manufacturers, a process control supplier, and top academic 
computer specialists to develop a modeling framework that can 
simultaneously account for factors both in production 
scheduling and unit operation level and reduce the impact of 
disturbances both proactively and reactively.
    Also at MxD, Dow, in collaboration with a small commercial 
drone company, developed a small tethered drone intended for 
use in inspecting confined areas either indoors or within 
industrial infrastructure, including tanks, conduits, and 
pipes. This will significantly reduce the safety risk of 
inspections by eliminating the need for confined-space entries.
    Dow also works with the Federal and national laboratories 
under cooperative research and development agreements providing 
access to unique facilities and top-notch researchers to work 
side-by-side with Dow researchers to solve complex technical 
problems. For instance, working together with Dow and LBNL 
(Lawrence Berkeley National Lab) have made progress toward 
development of catalyst imaging techniques, and understanding 
the variation of catalyst sites in correlation with polymer 
properties enables researchers to better design the next 
generation of catalysts.
    While the institutes provide a number of important 
benefits, Dow has observed several areas where improvement 
could enhance the institutes' goals. The institutes have shown 
a tendency to be slow to launch and slow to implement projects. 
This could be minimized through better communications and with 
well-written membership and project agreements. Each institute 
has put together its own membership agreement and project 
process. The institutes could benefit from shared practices and 
standardization of the agreement process. Such support was 
recommended in the AMP 2.0 report but not implemented.
    Most of the institutes operate under cooperative 
agreements, which generally do not provide enough flexibility 
to develop a framework for the institutes that would allow the 
institutes to quickly implement approved projects. One way to 
improve this issue is for agreements using other transaction 
authority negotiated with appropriate terms and conditions. 
This approach is been utilized for MxD, which is reaching the 
end of its agreement with the Department of Defense. MxD 
secured follow-on funding and negotiated a technical investment 
agreement using OTA (other transaction authority).
    Thank you, and I welcome your questions.
    [The prepared statement of Dr. Dibbs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you.
    At this point we'll begin our first round of questions, and 
the Chair will recognize herself for 5 minutes.
    Allow me to say we are just so proud of all of you. This 
interagency effort with the Department of Defense, Department 
of Energy, the Department of Commerce, with the National 
Institute of Standards and Technology being the spearhead 
there, this is a success story that the country will reflect on 
for years to come.
    And, Dr. Hopkins, you're absolutely right about Local 
Motors and what you've been able to do with smaller companies.
    And, Dr. Dibbs, you're spot on about some of the 
improvements. We'd certainly like government to move more at 
the speed and rate of business. And those comments are welcome.
    I was just recently at MxD right before they rebranded, and 
it's incredible on the 5-year anniversary to see how far the 
institute has come, how many projects have proliferated, and 
phenomenal workforce development efforts.
    So, Director Lightner, in your testimony you mentioned the 
5-year funding phase of the Department of Energy's 
Manufacturing USA Institutes and the subsequent transition to a 
self-sustaining model. Does this mean that the Department of 
Energy does not plan to continue Federal funding for its 
current Manufacturing USA Institutes at the end of the 5-year 
funding phase?
    Ms. Lightner. Thank you for the question. And the initial 
$70 million investment from the Federal sector is to catalyze 
the collaboration amongst the institute members. And during 
that time, the institute works with its members to develop a 
plan for how they will operate in Year 6 and beyond. And these 
plans vary depending on the industry and the needs of the 
industry. But in general what we see in the plan is non-Federal 
sources to cover the maintenance, the management, and 
operations; strong partnerships with States continuing; and 
then the opportunity to compete for Federal research and 
development dollars in the future.
    Chairwoman Stevens. It's fair to say that the institutes 
began as a vision, part of an experiment so to speak. I 
remember one of the directors from Lockheed Martin rightly 
declaring that to be the case. And the experiment with robust 
funding, interagency partners, competitor OEMs, and suppliers 
all being at the table has certainly proven itself to be 
inspiring and successful.
    So as we kind of explore the success of the public-private 
model, Ms. Lightner, Director Lightner, how do you think that 
the impending elimination of Federal funding will fundamentally 
change the Institutes as you have had the chance to see it?
    Ms. Lightner. Yes. I just want to clarify that we've had 
longstanding funding in many of the technology areas that the 
institute supports and so believe that there will be continued 
Federal funding for research and development dollars but that, 
you know, what the institutes will work with our members on 
during this current 5-year period is a plan that provides what 
the industry needs to continue collaboration in the future with 
various sources of resources coming in to pay for the 
management and operations.
    And, you know, for the Department of Energy, our first two 
institutes are just moving into their 5th year of execution 
starting in the June/July timeframe.
    Chairwoman Stevens. We'll be keeping a close eye on it.
    Mr. Myers, certainly with your experience working across a 
multitude of institutes, I was wondering if you could shed a 
little bit more light on opportunities for improvement 
regarding the M-E-Ps or MEPs, Manufacturing Extension 
Partnership centers, that the National Institute of Standards 
and Technology operates, your experience working with the 
institute on the MEPs and other supply chain activities. I'd 
love for you to extrapolate, please.
    Mr. Myers. Thank you, Chairwoman Stevens. Yes, we have our 
memberships in three--we're actually exploring a few more, ARM 
(Advanced Robotics for Manufacturing), for example, and I see 
it as beneficial to belong to the institutes to kind of drive 
the advancement of technology in manufacturing. And that's 
why--and I look at--took a look at where Hexagon is going 
strategically as a company and, you know, make sure that 
there's a good strategic fit, and so that's kind of how I 
evaluate where we join strategic partnerships with the 
institutes.
    And there's some outside of that as well. Those work out 
well, the Commonwealth Center for Advanced Manufacturing being 
one example. OMIC is another example, the Oregon Manufacturing 
Innovation Center, but the manufacturing center up there in 
Portland that's being established.
    Yes, being part of the network is valuable. It's, you know, 
kind of twofold for a commercial business like ours. It--you 
know, it helps us engage with our customers, first of all, the 
larger customers, and work with them exclusively on projects. 
The workforce development component I'm not too familiar with 
but I do know they have at LIFT, in particular, has a 
successful program run through Ms. DeRocco there. And in fact 
I'm supposed to be meeting with her sometime when we get a 
chance to connect on what Hexagon can do to help advance 
workforce development on the metrology side because there's the 
NIMH (National Institute of Mental Health )standards that's out 
there as well.
    And we're working with AMT as well through advanced 
manufacturing technology programs for training the workforce to 
be able to use the digital thread because a lot of the smaller 
midsize manufacturers are using older and antiquated methods. 
But to get to scale, I think the education and technology has 
to expand through the MEPs because they're more regionalized, 
and they have the extension to a lot of the smaller local areas 
that where you have the institutes, they also are regional, but 
they also have a specialty. But that specialty that's 
developed, for example, in IACMI or in LIFT or in MxD has to 
flow--what's the mechanism to kind of flow the advancement of 
the technologies so that other U.S. manufacturers located in 
other regions can use those? I don't know off the top of my 
head but that's--I think something that working together though 
can be addressed.
    Chairwoman Stevens. I'll now recognize Mr. Baird for 5 
minutes.
    Mr. Baird. Thank you, Madam Chair.
    Mr. Molnar, you indicated in your testimony that over the 
next decade, 3.5 million new manufacturing jobs will be 
generated with 2 million of those jobs expected to go unfilled 
due to a shortage of the skilled workers. The Purdue 
Manufacturing Extension Partnership, which is in my district, 
has developed five skills for success, programs that address 
manufacturing skills gap in Indiana in the areas of 
manufacturing, quality, supply chain, and leadership. Would you 
care to elaborate on the work of NIST and the MEPs and the 
Manufacturing USA Institutes and what they're doing to address 
this skills gap in your opinion?
    Mr. Molnar. Terrific. Thank you. It was in RAMI of course 
that we have the requirement to work with the Manufacturing 
Extension Partnership program. MEP is a 30-year network with a 
mission to engage small and medium-sized enterprises, a natural 
fit with our 4-year-old Manufacturing USA network.
    As the institutes--they're focused on the development of 
technology and the identification of the skills gaps in those 
technologies. They seem like a natural partnership working with 
our other agency partners, including the Department of 
Education, to help identify these with our academic partners, 
universities such as Purdue, and community colleges such as Ivy 
Tech to identify, develop, and have these.
    And then, finally, it's the old you don't know what you 
don't know in the supply base, and so this is where the MEP 
program really shines, in that folks in Indiana know about the 
Purdue Center, and so they know that here is where I can go to 
get advice and be made aware.
    So we've seen that as with the NIST pilot over the past 
year and a half has been to have an embedding program to make 
sure that there is an MEP staff member involved with each one 
of the institutes to make sure that we have a two-way conduit 
between what do the small and medium-size enterprises need and 
want, and then what do the institutes have that could be a 
solution for those companies?
    Mr. Baird. Thank you. And to kind of follow up on that, do 
you think there's any need to evaluate those initiatives and 
scale those up or add to them?
    Mr. Molnar. Well, as RAMI also required, biannually we have 
an assessment by the Government Accountability Office (GAO), 
and we're just completing our second assessment there, so 
working with our colleagues at GAO, we have this biannual 
assessment. And one of the things that we've just received 
yesterday, their draft findings, and they noted about the 
connections with education and workforce. So we're always 
looking. Before public service, nearly 30 years in industry, 
continuous improvement is the way of manufacturing, and so we 
can always find ways to improve.
    Mr. Baird. Thank you. I have one more question. Dr. 
Hopkins, I understand that your organization is a partnership 
of government-private industry and universities conducting 
research on new composite materials. Can you describe how these 
efforts could help companies in Indiana and how this research 
could improve the resiliency of our infrastructure?
    Dr. Hopkins. Yes, I'd be happy to. And Purdue University is 
one of our key partners. I'm looking at the Midwest in general 
and Indiana particularly. The composites industry has a pretty 
strong base in that area. A lot of that is attached to 
automotive but also in recreational vehicles.
    One of the things that we're doing is trying to connect 
these--you know, these various sets of companies who have 
different markets that they're serving and provide a common 
place for them to innovate. A lot of these companies in Indiana 
and in the Midwest are smaller companies that don't have access 
or easy access to research and development facilities. And even 
though they're next door maybe at Purdue, it's challenging 
sometimes to find the right door, to find the assistance in 
getting--you know, getting help with innovation, and finding a 
way to help implement it.
    We heard a little bit about the importance of digital. This 
is another important missing piece in the small-to-medium-sized 
enterprise landscape is the digital tools necessary to feed 
into the greater, you know, scaled-up production that your 
Fords and Dows just, you know, automatically have at hand. 
These are things that we're trying to do by connecting these 
dots and providing that service.
    Mr. Baird. Thank you. I see I'm out of time, so I yield 
back.
    Chairwoman Stevens. I also at this time ask that the 
following statement from the Sustainable Chemistry Alliance to 
be placed in the record. Without objection, so ordered.
    And now we will turn to Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you very much.
    Mr. Molnar, you highlighted the difference between our 
country's programs when it comes to advanced manufacturing, 
both in style and in amount that we invest and those being 
invested by some other countries. Could you--like an example 
that I saw was that Germany spends somewhere around =2.5 
billion on its Fraunhofer model. Are you familiar with that? 
Could you just talk about the comparison between the United 
States' efforts in this regard and what we see from Germany or 
even from China in a little more detail and what the 
implications of that might be?
    Mr. Molnar. It's really an excellent question because the 
gold standard, if you will, for focused applied research has 
been the Fraunhofer Institutes originally established in 1949 
as a recovery strategy from World War II. Fraunhofer has grown 
into 69 major institutes with a number of satellite institutes 
in other countries, and the Germans have made this into their 
key part of their innovation ecosystem, so it's between the 
investment of the Federal Government, the Lander Government, 
and industry, it's been a partnership.
    So when we were designing Manufacturing USA, of course, 
that was one of the role models. But the culture and the 
dynamic nature of the United States is different, so we were 
trying to pick the best of the best of different countries. So 
the leading characteristic of Fraunhofer that we wanted to 
ensure in Manufacturing USA is that it is the trusted entity. 
It is the place where this is something in my industry career 
which is so difficult. It was hard enough working with more 
than one university at a time, difficult to work with other 
companies, and impossible to work with competitors. So a key 
notion here is that Manufacturing USA with the Federal 
partnership there, it's the neutral convening ground where 
industry can really work together with academia. That's 
relatively new for the United States, but what it does is it 
augments what is really the envy of the world, this innovative, 
dynamic culture that we have in the United States.
    So there are similarities, there are differences. I guess 
if imitation is the sincerest form of flattery, the Chinese 
Manufacturing 2025 program, they've taken a page from us and 
they've committed to launching 40 institutes by the year 2025. 
Actually, they've copied all of our institutes, and we've 
actually noted that within days of any public Manufacturing USA 
event things are translated and shown in China. So this is why 
we see that global competition has really stepped up as more 
and more countries have focused on the value of applied 
research. We think that Manufacturing USA really applies a 
valuable tool here, which is leveraging the dynamic nature of 
the United States.
    Mr. Lamb. I agree. And, more importantly, it seems like 
many of the experts who have studied this whole model think 
that we are showing some initial signs of success and maybe 
would do better by investing a little bit more.
    So I wanted to ask, maybe Dr. Hopkins. You mentioned that 
you get roughly $70 million in DOE funding for a year for 
IACMI. In your mind--without putting a specific number on it, 
but in your mind is there room to grow? Do you think you could 
do more with more resources? And can you maybe talk to us a 
little bit about what additional return on investment we could 
get through an institute like IACMI?
    Dr. Hopkins. Well, I think so. I mean, more is always, you 
know, better to the extent that you can scale effectively. The 
thing that we're seeing from our industry membership and our 
consortium is the importance of these other application areas. 
You know, as I mentioned, we are addressing, you know, mission-
specific goals within the Department of Energy that are very 
important to them, very important to the country, but if we 
look at the composites marketplace and the consortium that 
we're managing and the industry element of it, it's broader 
than that.
    And the capacity to leverage the institute I think is 
beyond the initial goals that were set out within the 
Department of Energy. We're looking at that as part of our 
sustainability plan, looking at how do we manage the 
consortium, work to provide a--an ROI (return on investment) 
for them as a convening organization. We can convene, 
aggregate, and focus attention on important innovation-seeking 
ideas and concepts that the companies individually can't do. 
We're seeing the value in that. In fact, we're seeing more and 
more of our industry counterparts seeing value in that. Even in 
Year 4, we're still recruiting big companies and important 
companies who are part of the composites landscape that give me 
I think a good idea that we do have the capacity to scale and 
do more with the consortium.
    Mr. Lamb. That's great. Thank you. And I see I'm out of 
time. Madam Chairwoman, thank you.
    Chairwoman Stevens. Thank you. I will now recognize Mr. 
Weber for 5 minutes.
    Mr. Weber. Thank you, ma'am. Dr. Dibbs, you mentioned the 
need for more flexibility and cooperative research. You may be 
aware that the Science Committee had previously advanced 
legislation to give the Department of Energy's lab directors 
signature authority or the ability to approve research 
partnerships under $1 million. I don't know if you were aware 
of that or not. But nonetheless, you are now. Would this policy 
help encourage in your opinion more cooperative R&D within the 
industry?
    Dr. Dibbs. Yes, it would, and I was aware of that, and that 
is something that we were working with--one of the things just 
to bring that up, we developed a--we have long--had a 
longstanding relationship with Lawrence Berkeley National Lab 
(LBNL) having worked very extensively at the Advanced Light 
Source there. Then what--we then a few years ago started 
looking at broadening that out into--into that type of a much 
broader collaboration around analytical techniques necessary to 
study the materials that Dow is developing.
    In that process there were multiple meetings, yet when we 
got into doing agreements, everything had to be approved back 
at DOE even in changes, and as we were going through this, it 
took a significant amount of time to finalize not the statement 
of work and what we wanted to do but just the agreement and get 
those signed so that we could then proceed with the work.
    Mr. Weber. You might get Ms. Lightner's cell phone. You 
could probably get those approvals quicker that way. No 
pressure, Ms. Lightner.
    And I appreciate that, Dr. Dibbs. Would you put a 
percentage on that? Would you say it would improve efficiency, 
increase 10 percent, 20 percent, 30 percent? Those million-
dollar programs, what percentage of those would you say you all 
invested your time and effort in?
    Dr. Dibbs. Every one of the programs we were doing was 
under $1 million.
    Mr. Weber. Is that right?
    Dr. Dibbs. Yes.
    Mr. Weber. Woah.
    Dr. Dibbs. When we finally got the agreements approved, we 
were able to launch five new CRADAs (cooperative research and 
development agreements) with LBNL very quickly.
    Mr. Weber. Very good. In your prepared testimony you state 
that, ``The manufacturing institutes demonstrate what is 
possible when public investment is aligned to the mutual 
priorities of industry and Federal agencies.'' You also add 
that these partnerships are successful because of, ``a focus on 
the collaborative aspects of innovation letting industry and 
government both do what it does best.'' Would you expand on 
that for us?
    Dr. Dibbs. OK. When I--when you really talk about that, 
industry knows what the issues are in the marketplace. We know 
what customers want. We know what are the critical stumbling 
blocks in terms of bringing those things forward. So when you 
combine that knowledge----
    Mr. Weber. When you say stumbling blocks, you mean risk?
    Dr. Dibbs. Risk. What I mean is risk. I mean what are the 
main technical challenges that we need to overcome. And one of 
them is always going to be cost in terms of a product, so what 
we have to do is we have to balance all those issues against 
what we're trying to achieve in the collaboration. And those--
that is the knowledge that a company--that the industry brings 
into this.
    What the government, the government agencies, the national 
labs, what they bring in that is the very in-depth technical 
knowledge that then can be put toward those problems, and 
that's why I say what do we do best? We have the issues. What 
they have is they have the ability to actually address those 
issues.
    Mr. Weber. Thank you. I want to switch over to you, Dr. 
Hopkins. I'm fascinated by the composites and stuff. I mean, 
they build all kinds of things. And I was an air-conditioning 
contractor for 35 years and I sold my company a couple years 
ago actually with mixed emotions, joy and happiness. And so the 
things that they're building now just are unbelievable. And you 
say that IACMI has 160 members in the organization. Is there 
any other alike organization that has that many members in it 
that you're aware of in the manufacturing arena?
    Dr. Hopkins. I believe there are a few that have close to 
that number. You know, and certainly if I'm looking at, you 
know, the broader space with regards to even our trade 
organizations, you know, the American Chemistry Council, the 
American Composites Manufacturers Association are two of our 
key partners who are very much a part of our community of 
success. You know, they represent hundreds more members. But 
from a manufacturing institute perspective and the 
Manufacturing USA network, I think that we're, you know, 
probably at the top or we're near the top in terms of 
membership.
    Mr. Weber. All right. Very impressive. Thank you very much. 
I yield back.
    Chairwoman Stevens. Great. And now we'd like to recognize 
Mr. Lipinski for 5 minutes.
    Mr. Lipinski. Thank you. I want to first say I noticed that 
the first three witnesses here all have bachelor's degree in 
mechanical engineering, which impressed me very much. 
Unfortunately, none of you went to Northwestern like I did, 
but, you know, as the Chairwoman was introducing everyone, I 
say, oh, three BSMEs, so good to have all of you here, but us 
engineers have to always stick together, and there aren't too 
many of us up on this side.
    I want to ask Ms. Lightner, you know, I understand that the 
Department of Energy published a notice of intent regarding its 
plan to complete a sixth Manufacturing USA Institute that has 
the title, ``Clean Energy Manufacturing Innovation Institute: 
Cybersecurity in Energy Efficient Manufacturing.'' Certainly 
cybersecurity is a major issue that we need to do more about. 
It's a threat that we face constantly, and it continues to 
increase.
    I just wanted to ask. I know that the DOD has the 
Manufacturing times Digital Institute in Illinois, and so, you 
know, the National Center for Cybersecurity Manufacturing at 
MxD, I was just wondering how this DOE decision to launch a 
separate but overlapping manufacturing institute, what impact 
that would have? I don't want to see things be duplicated. I 
just want to see how you see any interaction there.
    Ms. Lightner. Sure. Thank you for that important question. 
So, as I mentioned, we actually issued the funding opportunity 
earlier this morning for the Cybersecurity and Energy Efficient 
Manufacturing Institute. And cybersecurity is a national 
priority, and both the DOD and DOE efforts are--need to be 
funded to ensure that the Nation's manufacturing sector remains 
competitive and is not compromised by cyber warfare.
    For DOE's mission, automation and advances in automation 
are enabled by cybersecure-connected sensors and control, and 
that is really critical to being able to achieve that 
opportunity of a 15 percent energy efficiency improvement in 
manufacturing.
    Prior to issuing our notice of intent, DOE and DOD met 
together to discuss both our intention to go out with a funding 
opportunity for the Cyber Institute and also other activities 
that DOE has related to cybersecurity and manufacturing to 
collaborate and discuss and ensure that the work that we are 
doing is coordinated and collaborative and not duplicative. And 
we are committed to continuing that dialog with the DOD to 
ensure that as we move forward, our efforts are collaborative.
    Mr. Lipinski. Very good. That's good to hear. And I know 
the Chairwoman has an interest in MxD having worked there 
before, so that's great to--good to hear about the--it being 
a--you've had those discussions.
    One thing I wanted to touch on very quickly, and I don't 
know if we have much time to get into it, I've been a longtime 
supporter of advanced manufacturing and also a longtime 
advocate for entrepreneur-in-training, mentorship training 
programs like I-Corps and Hacking for Defense. And Hacking for 
Defense brings in, you know, students to work on real-world 
national security problems. It brings together government, 
private sector, and the startup community, universities, 
nonprofit sector to solve real-world problems. And I think this 
could be a good model in manufacturing to do this, to go after 
some of the issues that we face in manufacturing. I don't know 
if anyone has enough knowledge and background. I don't know if, 
Mr. Myers, in Hacking for Defense or I-Corps you have any 
thoughts or opinions on bringing this into the manufacturing 
sector.
    Mr. Myers. Yes, I don't really have that extensive 
background to kind of answer that, but I know there's other 
folks within our company that I can reach back to and ask that 
same----
    Mr. Lipinski. OK.
    Mr. Myers [continuing]. Question to.
    Mr. Lipinski. I appreciate that.
    Mr. Myers. Yes.
    Ms. Lightner. I'd just like to add that the Department of 
Energy also has an energy I-Corps activity and a lab-embedded 
entrepreneur program that brings entrepreneurs into our 
laboratory systems under a fellowship program to further 
advance their technologies and work on their business plans. 
And it's hardware-based, so manufacturing-based.
    Mr. Lipinski. And have you seen success?
    Ms. Lightner. We have. We've had--some of our entrepreneurs 
have made the, you know, 30 under 30 list in the first couple 
years of execution of the program.
    Mr. Lipinski. Very good. Thank you. I yield back.
    Chairwoman Stevens. The Chair would now like to recognize 
Mr. Marshall.
    Mr. Marshall. Thank you so much, Chairwoman.
    I might take that conversation in a little different 
direction. You all have had a unique view of manufacturing 
since--well, since NAFTA (North American Free Trade Agreement) 
came about, and I would think that would impact you. You know, 
as manufacturing jobs left the country, I would suppose maybe 
your business wasn't quite as busy either. I'm sure you keep 
track of USMCA (United States-Mexico-Canada Agreement) and that 
trade agreement. Do you think it'll be good for manufacturing 
jobs in this country? Does anybody wish to grab that one? 
Nobody? All right.
    Mr. Weber. I wonder why. The gentleman yields back.
    Mr. Marshall. Let's talk about innovation and carbon 
recapture for a second. Who sees anything in that happening? 
What's happening out there in the world of carbon recapture or 
just what are we doing to decrease our carbon imprint? What's 
impacting the country right now? Ms. Lightner, I think you had 
some comments on some of the innovation things I heard earlier.
    Ms. Lightner. Yes, I do. So our--you know, our mission of 
our office is to reduce the energy intensity of the 
manufacturing sector, and by improving energy efficiency, there 
is an affiliated result of reducing emissions as well. So, you 
know, that comes along with the technologies that we're 
developing. Reducing emissions comes along with improving 
energy efficiency in the manufacturing sector.
    Mr. Marshall. OK. Anybody just want to comment on 
innovations? Yes, Dr. Hopkins, go ahead.
    Dr. Hopkins. Yes, I'll do that because that's really at the 
core of what we're trying to accomplish within IACMI. The 
primary driver for cost is the carbon fiber itself. That's 
because of the energy, the embodied energy that is required to 
create it. We're trying to reduce that. That has kind of a 
trifold effect possibly. One is it reduces the cost of 
manufacturing, the carbon footprint for the manufacturer 
itself, the implementation of the materials that are now more 
readily adoptable because of the cost reduction due to the 
reduced energy, makes them beneficial with respect to use and 
applications like vehicles where then you reduce the energy 
footprint and the application of the products. And if we can 
reduce these costs sufficiently, then there's also even greater 
opportunity for deployment and infrastructure in which you are 
looking at displacing concrete and other materials that have a 
significant carbon footprint over their lifespans.
    Mr. Marshall. Well, what can Congress do right, what can 
Congress do wrong to help or hurt innovation going forward in 
the world of carbon recapture and decreased carbon footprint?
    Dr. Hopkins. In the path that I just laid out IACMI has 
been working on the IMAGINE Act (Innovative Materials for 
America's Growth and Infrastructure Newly Expanded), which 
provides a readymade pathway for adoption of these materials. 
It's challenging for nascent new materials to find their way 
into use for these types of applications. And the IMAGINE Act 
provides a pathway for, you know, decisionmaking to, you know, 
have some incentive to look at, you know, new ideas and new 
materials that could provide advantage in the utilization.
    Mr. Marshall. OK. Let's turn to community colleges and 
technical colleges. I suppose I have 12 or 13 of those in my 
district, and only one of them I know is actively advanced in 
any type of research going on. Any words of advice? Was it Mr. 
Molnar that mentioned something about community colleges, 
working with them? What advice can I take back home to a 
community college or a technical college that wants to be 
involved with research?
    Mr. Molnar. I think the answer lies in this misperception 
of what manufacturing is about, that people think it's the 
dirty, dark, dangerous, declining thing of a big factory making 
something, and that's this niche here, and really what's 
exciting today is that manufacturing is really about designing 
and making things. And so what I'm excited about is the fact 
that over the weekend my son was at a science fair where he was 
researching--and he's a high school student, and he's 
researching additive manufacturing. And so as long as they 
don't consider that as manufacturing, rather that it is an 
innovative thing.
    So I'd say part of the notion is imagining that while 
community colleges or even high schools don't do manufacturing, 
and the fact is actually they do. And just having 3D printers 
is a way to interest people, and if you have an idea, then you 
can make it, and if you can make it, you're a manufacturer. And 
so it's an exciting new field of applying math and science and 
having it manifest itself in something that they can make. I 
think that's a big part of it.
    What's exciting here is many of our projects at the 
institutes, is beneficially informed by having community 
colleges there because they provide the voice of the customer 
if you will for what youth are looking about, what youth need, 
and so that's part of the diversity of having these things on 
the project teams.
    Mr. Marshall. Great. Thank you so much, and I yield back.
    Chairwoman Stevens. Thank you. The Chair would now like to 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Madam Chairwoman.
    America's economy, millions of jobs, and our national 
security depend on manufacturing. Experience has taught us that 
our government can be a powerful partner in revitalizing and 
strengthening the U.S. manufacturing arena. For instance, we 
came together as a Nation and made a commitment to invest in 
manufacturing when we created the first-ever national network 
of manufacturing hubs. This achievement was the result of our 
overwhelming bipartisan passage of the Revitalize American 
Manufacturing and Innovation, RAMI, Act. Our gains in this area 
will need continued support and the kind of sustained long-term 
funding we see from our most productive allies and competitors 
around the world.
    As a representative for New York's capital region, I've 
seen firsthand that moving toward an innovation economy can be 
the key to economic growth. Our region is home to robust and 
diverse manufacturing landscape. From small companies to large 
multinationals, our region produces some of the world's most 
advanced materials, power generation equipment, 
pharmaceuticals, industrial components, and semiconductors just 
to name a few.
    AIM Photonics led by SUNY Polytechnic Institute applies 
lessons from 40 years of success in the electronics industry to 
drive photonic-integrated circuits. Rensselaer Polytechnic 
Institute in Troy, New York, runs the Northeast node for the 
Clean Energy Smart Manufacturing Innovation Institute or 
CESMII. CESMII is focused on making U.S. manufacturing more 
energy-efficient and more competitive across-the-board. And RIT 
leads the REMADE Institute in Rochester, which will enable 
early-stage applied research and development of technologies 
that could dramatically reduce manufacturing energy and carbon 
emissions. These and other public-private partnerships across 
the State and the country have been incredibly successful and 
fill a needed role. I'm concerned that more long-term funding 
is needed to see the full benefits of these institutes if we're 
going to really make as much progress as we hope to.
    So, Dr. Lightner, industrial greenhouse gas emissions 
remain a large, overlooked, and difficult-to-decarbonize piece 
in our climate solutions puzzle. Much more R&D must be done to 
develop ways to reduce process emissions, but we also need to 
make major improvements in industrial energy efficiency. 
Luckily, this Committee has a real expert in a colleague like 
that seated to my right in Mr. Casten who worked to deploy CHP 
and other industrial efficiency systems.
    But I want you to focus on how DOE is promoting adoption of 
better energy management systems such as the ISO 50001. Can you 
explain a little bit about what ISO 50001 is and the benefits 
of a manufacturer implementing this standard or participating 
in its superior energy performance program?
    Ms. Lightner. Sure. Thank you. The Department, through our 
technical partnerships program, has a flagship program of 
Better Plants where we partner with the manufacturing sector to 
set aggressive energy management goals. And under that, that 
is--we asked them to at least commit to a 25 percent 
improvement in energy intensity over 10 years. The ISO 50001 
framework provides an even more rigorous international standard 
to energy management, and what we've seen through superior 
energy performance is that when companies undergo that more 
rigorous evaluation on energy management, they can see up to, 
you know, a doubling, so, you know, whereas the standard goal 
is a 2.5 percent improvement per year, we've seen upwards of 5 
percent improvement a year for companies that have taken on the 
superior energy performance.
    Mr. Tonko. Thank you. And, you know, for us to stay 
competitive or ahead of the pack so to speak, we want to be 
innovative. Are other industrialized nations implementing ISO 
50001 as part of their climate mitigation strategies and 
promotion of more sustainable manufacturing processes?
    Ms. Lightner. Other countries are implementing--now, Europe 
particularly is--has a more rigorous program in--I think tied 
to some regulatory framework regarding the implementation of 
ISO 50001. The U.S. program is more voluntary basis.
    Mr. Tonko. And what else is your office doing to promote 
widespread awareness and adoption through the 50001-ready 
program?
    Ms. Lightner. Yes, so, you know, one of the things that we 
do in addition to trying to engage additional partners is get 
the word out about successes of our current partners so we're 
amplifying success stories and looking for opportunities to let 
people know how they can replicate some of those successes.
    Mr. Tonko. Thank you. My time is up, but if you could share 
some of those success stories with the Subcommittee, that would 
be helpful.
    Ms. Lightner. Sure. Thank you.
    Mr. Tonko. Thank you so much. And with that, I yield back, 
Madam Chairwoman.
    Chairwoman Stevens. Thank you. And the Chair would now like 
to recognize Mr. Gonzalez for 5 minutes.
    Mr. Gonzalez. Thank you, Chairwoman Stevens and Chairman 
Lamb, Ranking Members Baird and Weber, for having this hearing 
today. Thank you, witnesses, for your time and attention.
    So I have the honor and privilege of representing a 
district in northeast Ohio, Ohio's 16th District, and obviously 
we rely heavily on manufacturing, always have. We're proud of 
it. And we employ roughly 41,000 people working directly in the 
industry, $2.2 billion in annual payroll, and it's just been an 
incredible gift to our region and our country.
    But we share a lot of the frustrations that have been 
voiced here today. Team NEO, which is one of our business 
development groups in town, recently told us that advanced 
manufacturing has about 15,000 open jobs that haven't been 
filled due to the growing skills gap. And so we clearly have--
if I want to break this into kind of two things, we clearly 
have workforce issues, but then I also believe we have 
investment issues.
    I think, you know, in Washington, D.C., we do a good job--
or I think we do a poor job I should say--but we like to spend 
a lot of money. I don't think we're particularly thoughtful 
about our investments. I think there's a difference between 
just spending versus investing. And when I think of this 
hearing and when I think of how important this is, I think we 
need to reprioritize our dollars, and we need to think about 
actually investing in advanced manufacturing, giving it the 
resources that it needs. And yes, we need to be more efficient, 
no question, but if we underinvest, then we're going to lose to 
Germany and China. And there's no reason why that has to be the 
case.
    And so I want to start my first question focused 
specifically on China and Germany and the trends that they have 
on the investment side. So, Mr. Molnar, could you talk 
specifically about how those two countries have prioritized 
advanced manufacturing and the investments that they have made 
in that sector compared to us in the last 5 years let's say.
    Mr. Molnar. Well, the German Fraunhofer network with the 69 
institutes, they have a different model. It's much a more 
structured model. I believe it's =2.3 billion or =2.4 billion 
annual budget, and so this is funding their institutes. They 
also have a crosscutting program that encourages intra-
institute activities. As I mentioned before, they've really 
built into their innovation ecosystem coming from their 
national labs and being an applied research conduit working 
closely with industry. We work with them. We talk with them. 
And again, there are many similarities.
    One thing that we are proud of with Manufacturing USA is 
the innovative culture and the ability to identify, when 
technology changes, when you find something, we can stop nimbly 
and pivot and go with the voice of industry, so we always want 
to move a bit faster.
    The question of China is more difficult. They do not 
publish budgets of what they have. From what we have been able 
to see, they are very, very well-funded, and it really is a 
government-led initiative.
    Mr. Gonzalez. And then Germany you said was =2.4 billion. 
What is our dollar figure? You know, don't convert it to Euro 
if you don't want to but--unless you're really good at math 
but----
    Mr. Molnar. Well, again, the Federal investment has been 
limited to the startup of the institutes----
    Mr. Gonzalez. Yes.
    Mr. Molnar [continuing]. So I believe the--we're talking 
about from the last year about a $350 million----
    Mr. Gonzalez. Yes.
    Mr. Molnar [continuing]. Collective investment.
    Mr. Gonzalez. So fair to say Germany is more focused and 
they commit more resources?
    Mr. Molnar. Yes.
    Mr. Gonzalez. OK. And then when we're talking about the 
skills gap, you mentioned Purdue has done a really good job of 
what I would call advertising the program that they have in 
getting more folks into it. Could you talk more about that? 
Because when I hear about the skills gap in my district, I hear 
about a few things. One, there's definitely a skills gap, but 
there's also an awareness gap, there's a motivation gap if you 
will. I think you said it earlier. Folks think of manufacturing 
as heavy industry, and maybe it's not as cool quote/unquote, 
but obviously produce doing something different. Can you talk 
about what they've done that's been successful?
    Mr. Molnar. Well, I think the success stories--we are 
working on our next year's annual report. I mentioned in the 
past year over 200,000 people were touched by programs with 
Manufacturing USA. We're anticipating that this number will be 
much higher for our next year. But I'd point to Lorain 
Community College----
    Mr. Gonzalez. Yes.
    Mr. Molnar [continuing]. Working with students, so part of 
the piloting programs that we have with the institutes, we want 
to cascade it, and so community colleges like Lorain are 
important partners----
    Mr. Gonzalez. Great.
    Mr. Molnar [continuing]. So I think that there will be a 
lot of interesting success stories coming up very soon.
    Mr. Gonzalez. Thank you. Thank you for your time. I think 
this is an amazing hearing. So with that, I'll yield back.
    Chairwoman Stevens. Thank you. And the Chair will now 
recognize Mr. Foster for 5 minutes.
    Mr. Foster. Thank you. And I'd like to thank the Chairs and 
Ranking Members for organizing this very important hearing and 
as well as our panelists.
    Several of you have mentioned the key contributions of the 
national labs and particularly the 17 Department of Energy 
national labs in seeding this technology and the transfer. 
First off, I should acknowledge I'm actually the Co-Chair of 
the National Labs Caucus along with Congressmen Fleischmann, 
Lujan, and Zeldin. And we're actually going to be having our 
kickoff event tomorrow evening in the Rayburn Building here 
where there will be several directors of national labs and 
other representatives there. So my colleagues that are, you 
know, interested in getting here, we're also going to be 
organizing visits to the individual national labs where I'm 
sure we'll be hearing about their technology transfer, 
including manufacturing, for many of these laboratories. So I 
want to thank you all for highlighting that.
    Now, my question here has to do with sort of your vision 
for the future of manufacturing. You know, traditionally, we've 
had large systems integrators. You can think about, you know, 
the main contractors for the Apollo program or Boeing where you 
have a main system integrator and large numbers of ma-and-pa 
machine shops so to speak, you know, making individual 
components. And startups with a unique technology would start a 
little standalone business.
    At the other end of the vision here is something I think a 
lot more that Mr. Myers described, which is sometimes described 
as cloud manufacturing. These are large contract manufacturers 
that can build anything. And so, you know, a lot of the 
startups with products in mind now just--they--oh, we're going 
to design the product and it's going to be mass-produced by a 
contract manufacturer typically in the east for many high-tech 
products.
    And so I think if that is in fact the future of 
manufacturing, it's very different than the individual ma-and-
pa businesses. I have to say this sort of breaks my heart. I'm 
best known as being the other Ph.D. scientist in Congress, but 
I also am a businessman. I started this company with my younger 
brother with $500 of my parents' money, and that company now 
manufactures about 70 percent of the theater lighting equipment 
in the U.S., over 1,000 workers, and we're all in suburban 
Wisconsin.
    But, you know, if we restarted the business today, it is 
not clear that the contract manufacturing model is more 
attractive. And that really affects what your planning is. You 
know, are you trying to set up the technology and transferring 
it to what may be the future of manufacturing if these are--
when you've got a bright idea, instead of planning a startup 
operation, you'd simply license it to one of the large contract 
manufacturers. And is that something that you wrestle with or 
do you have any words of wisdom on which way you think that is 
going to proceed in mass production of things? Mr. Myers, 
actually since you came close to describing your vision of the 
future would be a big digitally integrated manufacturing 
capability.
    Mr. Myers. Right, thank you for the question. I see it as 
an opportunity for entrepreneurs who would want to go into the 
manufacturing field without the need for a large capital 
investment because typically you would need to do that with 
that, but with--through autonomous connected ecosystems and 
knowing we're--if you had a design for a product and needed a 
manufacturer, you didn't really--you don't really need to own 
the asset through--you can----
    Mr. Foster. Right.
    Mr. Myers [continuing]. Rent time on machines through one 
of the institutes and have a machine----
    Mr. Foster. Cloud-based manufacturing----
    Mr. Myers. Right. I mean----
    Mr. Foster [continuing]. And it is a very attractive model 
because if your product takes off, you can rapidly scale the 
same way a digital business can today. You know, you write an 
app, and if the world loves it, then you can rapidly scale the 
number of customers. But it's a very different version for, you 
know, the small-scale manufacturers, whether they'll end up 
going the way of the family farm. And this is something I 
struggle with, you know, all the time when I think about the 
future. It's going to be hard to compete with large integrated 
manufacturing. And if that is in fact the way things are going, 
we should be thinking about how to put our technology transfer 
in place for that.
    So, anyone?
    Mr. Molnar. Well, I'd like to say that it's a very exciting 
time for many people that think the golden age of manufacturing 
is ahead of us because in fact the rules are changing. And if a 
small manufacturer is aware of these changes and make use of 
them, then they have a greater opportunity for market exposure 
and a greater opportunity for capturing these trends called the 
democratization of manufacturing, which is why, again, we 
really wanted to see that manufacturers play a pivotal role in 
engagement of the institutes, and then two-thirds of the 
manufacturers are small institutes. So the rules are changing, 
and the exciting thing is if we're in the driver's seat in 
changing those rules, then the future can be very bright for 
our small and medium-size manufacturers.
    Mr. Foster. But if--you just said they would exist as 
people who design products and then send it to a big contract 
manufacturer. My time's up here, but, you know, any thoughts 
that you had on that because this I think is the big challenge 
for, you know, the Mittelstand, which I am a proud--I guess I--
my business qualifies as that. So, anyway, thank you for 
holding this hearing, and I'm out of time here.
    Chairwoman Stevens. Thank you. And the Chair will now 
recognize Mr. Balderson for 5 minutes.
    Mr. Balderson. Thank you, Madam Chair. Good morning, 
everyone. Good afternoon almost. Thank you all for being here 
this morning.
    A little background first. Wyandot Snacks, located in 
Marion, Ohio, is one of the largest snack food manufacturers in 
the U.S. They are a member of the Center for Innovation Food 
Technology (CIFT), which is part of the Manufacturing Extension 
Partnership network through NIST. Because of the research that 
CIFT has conducted, Wyandot has been able to leverage their own 
resources in pursuit of technologies that can improve the 
company's bottom line and increase wages for workers. In one 
project, Wyandot took advantage of CIFT's technology program to 
explore the use of rapid detection technology to uncover 
pathogens in a dry processing environment. Collaboration 
between public partners like NIST and private partners like 
Wyandot Snacks often leads to successful implementations of 
technologies.
    My question for all of you is to weigh in on how valuable 
you believe these public-private partnerships can be to 
manufacturing innovation? And you may go in any order you wish.
    Mr. Molnar. Well, as many have noted, when you have a 
difficult or challenging problem, there is no more effective 
means to tackle it than creating a public-private partnership, 
a collaboration, and so that's really what the foundation of 
Manufacturing USA is about is partnering.
    And I mentioned earlier the strength of diversity of having 
large, medium, and small companies, research universities, and 
community colleges. We've really seen the power of that in 
these collaborative projects. I think another Member said the 
role of government with the--with all of the agencies involved, 
we've really been able to connect with--if there is a national 
laboratory, if there is a Federal program. And, as I mentioned 
earlier, not because they have to but because--that there are 
laboratory programs at NIST that are beneficial that touch on 
it, all 14 institutes have engagement from the NIST 
laboratories. I really think public-private partnerships are an 
effective means of dealing with these challenging issues.
    Ms. Lightner. And I'll just weigh in from the Department of 
Energy as well. You know, that is how we execute our program is 
through public-private partnerships. And we feel that it's 
really important to engage with industry so that we're focusing 
the Federal research dollars on problems that industry is 
facing and that we continue to be able to direct research 
dollars to those broad and evolving changes in the 
manufacturing space through public-private partnerships. Thank 
you.
    Mr. Myers. Another way is on a particular project and focus 
for advancement of technology in a certain area in terms of 
scanning and also incorporating AI where you can teach and 
through machine learning certain defects on certain systems 
through scanning basically through algorithms developed through 
the--working with the institutes in combination with private 
and public funding can advance technologies where we could 
lead, you know, in this area again.
    Dr. Dibbs. From the company perspective, a lot of the 
issues and problems that we are now dealing with are much 
larger and more complex than something that any company 
actually can deal with on their own. What the government 
provides is a framework that allows us to access both the 
technology and innovation capabilities of the universities and 
the national labs and other Federal agencies to address those 
issues, bring them to them, and then, in partnership, get 
solutions that will benefit the company, the society, and the 
public as a whole.
    Mr. Balderson. Thank you all very much. Doctor, go ahead if 
you had an input. Thank you.
    Dr. Hopkins. Well, I just want to comment on the importance 
of the connectivity, you know, and the things that we're 
talking about to some extent aren't difficult to, you know, 
conceptually think of, but they are critical with regards to 
how you bring these dots together, how you bring the community 
together and providing environments where there's knowledge and 
awareness of capabilities, problems, and really creating an 
environment to support industry-informed innovation.
    Mr. Balderson. Thank you very much. Madam Chair, thank you.
    Chairwoman Stevens. Thank you. The Chair would now like to 
recognize Ms. Horn for 5 minutes.
    Ms. Horn. Thank you, Madam Chair, and thanks to all of you 
for being here today. This is a really important topic. I want 
to follow on a little bit more from the conversation about 
public-private partnerships to the importance and the role of 
workforce development and the role of our educational 
institutions and how that fits into this manufacturing sector 
because we know that one of the key parts as technologies 
continue to evolve in developing and manufacturing workforce is 
individuals that have a STEM background or some connection to 
STEM and technology.
    And so I want to start with Dr. Hopkins. You mentioned in 
your testimony that IACMI has engaged over 9,000 K-12 students 
in STEM activities. And I want to ask you to expand on how this 
prepares them to move into STEM careers and their relationship 
between not only the 2- and 4-year institutions but also 
technical career techs and other technical programs.
    Dr. Hopkins. Right. And these, you know, interactions tend 
to be locally driven where we're working with partners at the 
community college and university level and in most cases where 
we have students at the community college and the universities 
involved in the delivery of these programs. We try to put them 
in the form of, you know, experiential type of programmatic 
activity where they're creating a composite snowboard or 
skateboard or something that they can relate to. And these are 
things that are really increasing awareness. We see the--you 
know, the benefit of making sure that high school students in 
particular know what options are available to them, that they 
have some introduction to composites and these advanced 
materials, as well as the--you know, the manufacturing careers 
that are associated with them. Both entry points into, you 
know, 4-year and community college pathways are important, and 
it's important to provide that in the context that relates to--
you know, to those students. And I think that we've done a good 
job at doing that for those that we've engaged.
    Ms. Horn. Thank you very much. And following onto that, the 
conversation around public-private partnerships I think is 
really important and about the framework that the government 
programs provide to make it possible to build these public-
private partnerships with the R&D on the front end. But I 
wanted to follow up a little bit more, Dr. Dibbs, about this 
balance and where the incentive is for private sector to build 
onto public sector. And so what is a simple payback that Dow 
would be using and requires to invest their resources in, say, 
energy efficiency in your manufacturing operation? What would 
that take to promote that investment or to make it worthwhile?
    Dr. Dibbs. Well, it would actually depend upon what the 
investment is. One of the things that Dow has always done is 
recognize that reduction in energy, reduction in waste is 
always--pays because those are the--those are elements that 
you're always going to have to deal with. We are constantly 
striving to reduce the energy intensity in our products and 
also reduce the waste, which means that anything that we would 
like to have I think the model where everything that comes in 
from a raw materials standpoint goes out as a product.
    Ms. Horn. Thank you very much. And I think I just have 
about a minute left here, so finally, I want to talk for a 
moment about when we're talking about technically skilled jobs 
and good-paying manufacturing jobs, how these sorts of 
partnerships--and I'm just going to open this up to everybody--
can work to increase access and increase reaching out to 
underserved communities, especially communities where there's 
high poverty, communities that are historically underserved in 
these public-private partnerships, how we can leverage that, 
the partnerships between the universities, the colleges, the 
technical schools, and industry to work together to get people 
into these jobs?
    Mr. Molnar. Well, I think the exciting part is you learn by 
doing, and so with exposure of the hands-on projects that IACMI 
does and NextFlex does is really impacting a lot of high school 
students and community college students. That's one aspect of 
it. But we know that we can do more, and this is why, as I 
said, we really benefit from a diverse set of participants, and 
one of the things that we like to see is more engagement by 
historically black colleges and universities. Our office is 
working with the National Science Foundation in a workshop 
later this year on how bringing together the 50 or more HBCUs 
(historically black colleges and universities) on how we can 
better engage HBCUs and other communities into the 
Manufacturing USA network. I should note that Johnathan 
Holifield, who leads the White House initiative on HBCUs, is 
also part of this initiative.
    So we know that we can do more, but it's very exciting to 
see this outreach happen especially as the hands-on projects, 
nothing excites a student more about doing something than 
learning by actually doing.
    Ms. Horn. Thank you very much. My time is expired. Thank 
you, Madam Chair.
    Chairwoman Stevens. Well, thank you.
    And before we bring the hearing to a close, I want to thank 
our witnesses again for testifying before the Committee today. 
This was very intentional for us to have this hearing in the 
first 100 days of the 116th Congress on the heels of many of 
the original institutes reaching or cresting their 5-year 
milestone and showcasing success.
    I'd also like to take a minute to recognize Ms. Tracy 
Frost, who has joined us here today in the audience, our 
Director of the OSD ManTech office within the Department of 
Defense. You don't know the Manufacturing USA without knowing 
Ms. Frost, who has been a dedicated and tireless leader and 
advocate for the success of our Institutes.
    The record will remain open for 2 weeks for additional 
statements from Members and for any additional questions that 
the Committee may ask of our witnesses. The witnesses are 
excused at this time, and the hearing is now adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittees were 
adjourned.]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
